OIG Audit Report GR-60-09-011

Office of Justice Programs Bureau of Justice Assistance Grant Awarded to the Nebraska Department of Correctional Services, Lincoln, Nebraska
Audit Report GR-60-09-011
May 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an  audit of the Serious and Violent Offender Reentry Program (SVORI), Grant  No. 2003‑RE‑CX‑0001, in the amount of $2,386,908 (including one  supplement) awarded by the Office of Justice Programs (OJP), the Bureau of  Justice Assistance (BJA), to the Nebraska Department of Correctional Services  (NDCS).  The purpose of  the award is to provide funding to state and local units of government to  develop and implement institutional and community corrections-based offender  reentry programs through collaborative partnerships with government, social  service, faith-based, and community organizations, in order to reduce  recidivism, increase public safety, and successfully reintegrate serious and  violent offenders back into the community. 
Since 1984, OJP  has provided federal leadership in developing the nation's capacity to prevent  and control crime, improve the criminal and juvenile justice systems,  increase knowledge about crime and related issues, and assist crime victims.  As a component of OJP, BJA is  dedicated to the mission of providing  leadership and assistance in support of local criminal justice strategies that  improve and reinforce the nation’s criminal justice system.  The BJA's overall goals are to:  (1) reduce and prevent crime, violence,  and drug abuse and (2) improve the functioning of the criminal justice  system. 
To this end, the SVORI program was developed through  a federal partnership between the Departments of Justice, Labor, Health and  Human Service, Education, Housing and Urban Development, Commerce, Veterans  Affairs, and Agriculture.  The goal of  this partnership was to help state and local agencies navigate the complex  field of existing state formula and block grants and to assist states in  accessing, redeploying, and leveraging the necessary resources to support the  components of a comprehensive reentry program.  
The  NDCS dates back to 1851 when it served as the Nebraska Territory Prison.  Today it is Nebraska’s largest criminal  justice agency and is one of thirteen prison systems in the nation that are  fully accredited by the American Correctional Association.  Through its commitment to providing effective  protection for citizens of Nebraska, the NDCS developed and implemented  a SVORI program that focused on increasing public safety by providing  comprehensive services and supervision from prison to home for offenders  between the ages of 18 and 65 years old who are returning to Omaha.  The NDCS partnered with various service  agencies to address the challenges of recidivism, substance abuse, physical and  mental health, as well as provide support in the area of education, workforce  participation, housing, faith-based support, and other services as appropriate. 
The purpose of this audit was to determine whether reimbursements claimed  for costs under the grant were allowable, supported, and in accordance with  applicable laws, regulations, guidelines, and terms and conditions of the  grant, and to determine program performance and accomplishments.  The objective of our audit was to review  performance in the following areas:   (1) internal control environment, (2) drawdowns, (3) grant  expenditures, including personnel, (4) budget management and control, (5) financial  status and categorical assistance progress reports (Progress Reports),  (6) grant requirements, (7) program performance and accomplishments,  and (8) monitoring of subgrantees and contractors.  We determined that matching, indirect costs,  property management, and program income, were not applicable to this  grant.  As shown in Table 1 below, the  NDCS was awarded a total of $2,386,908 under the grant.  
TABLE 1.  SERIOUS AND VIOLENT OFFENDER REENTRY PROGRAM
GRANT AWARDED TO THE NDCS


GRANT AWARD 
AWARD   START DATE
AWARD   END DATE
AWARD AMOUNT


2003-RE-CX-0001Supplement 1
10/01/03 09/20/04
09/30/06 12/31/07
$2,070,000316,908


Total:
$2,386,908


Source:  Office of Justice Programs
We examined the NDCS’s accounting  records, financial and progress reports, and operating policies and procedures  and found:

Documentation supporting the required performance measures was not maintained.  NDCS officials agreed with our finding; however, since the grant period had ended we make no recommendation for corrective action. 

These items are discussed  in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology  are discussed in Appendix I. 



 




Return to OIG Home Page